           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


      RESTRICTED COUNTRIES:
   CONTROLS OVER INTERNET CLAIM
    APPLICATIONS AND PAYMENTS
         TO BENEFICIARIES

      June 2012   A-05-10-20180




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:      June 5, 2012                                                         Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Restricted Countries: Controls over Internet Claim Applications and Payments to
           Beneficiaries (A-05-10-20180)


           OBJECTIVE
           The objective of our review was to determine whether the Social Security Administration
           (SSA) had established appropriate controls to (1) identify and monitor Internet Claim
           (iClaim) applications originating from restricted countries1 and (2) monitor payments to
           beneficiaries classified as residing in restricted countries.

           BACKGROUND
           SSA claimants can apply online for Title II retirement and disability insurance benefits
           (RIB and DIB, respectively) through the iClaim application system. 2 In December 2008,
           the iClaim application replaced the Internet Social Security Benefit Application. 3 In
           Fiscal Year (FY) 2011, SSA received approximately 2.5 million RIB applications, with
           approximately 1 million (41 percent) received via iClaim. Additionally, in FY 2011, SSA
           received approximately 3.3 million DIB applications, with approximately 1 million
           (33 percent) received via iClaim. 4



           1
             According to the SSA Handbook §1847, dated April 12, 2010, a restricted country is one to which
           payments cannot be sent to anyone because of Department of the Treasury (Treasury) regulations or
           SSA restrictions. Also refer to SSA, Program Operations Manual System (POMS), RS 02650.040—
           Special Payment Procedures for Certain SSA-Restricted Countries (July 8, 2011). See Appendix B for a
           list of Treasury- and SSA-restricted countries.
           2
             While SSA designed the iClaim applications for individuals residing in the United States and its
           territories, recent changes to the application have expanded its use to non-U.S. locations. We discuss
           this later in the report.
           3
               SSA, POMS, GN 00204.055 A—Internet Claim (iClaim) Application (December 21, 2011).
           4
            SSA’s Performance and Accountability Report for FY 2011: Overview of Our FY 2011 Goals and
           Results, pages 20 through 24.
Page 2 – The Commissioner
Individuals can live overseas and receive Title II benefits. 5 However, Treasury prohibits
sending payments to beneficiaries residing in Cuba and North Korea. 6 SSA also has
restrictions on payments to beneficiaries in Azerbaijan, Belarus, Cambodia, Georgia,
Kazakhstan, Kyrgyzstan, Moldova, Tajikistan, Turkmenistan, Ukraine, Uzbekistan, and
Vietnam. 7 SSA has restricted payments to these countries because it has been unable
to obtain written assurance of free access to claimants/beneficiaries and vital statistics
records. 8

To receive payments while in a restricted country, eligible beneficiaries must agree to
fulfill additional reporting requirements, and the payments must be approved by SSA’s
Office of International Programs (OIP). 9 The Office of International Operations (OIO) is
responsible for accepting, developing, adjudicating, authorizing, and reconsidering
claims by persons living abroad as well as maintaining and servicing this beneficiary
population. 10

In October 2010, we issued an early alert to the Commissioner of SSA addressing
concerns with the Agency’s controls for identifying iClaims originating in foreign
countries and encouraged the Agency to monitor iClaims filed from overseas locations.
We also conducted a separate audit of controls over the iClaims process, which
included the review of broader trends regarding iClaims. 11 In this review, we focused on
iClaim applications originating from restricted countries as well as payments to
beneficiaries in restricted countries. 12




5
  According to SSA’s December 2011 Report on Foreign Beneficiaries (FORBES), approximately 566,670
(or 1 percent) of all Title II beneficiaries were residing outside the United States and its territories. We
discuss the FORBES report later in our report.
6
  SSA, POMS, RS 02650.001 C—Treasury Department Restrictions (November 26, 2002). This POMS
refers to the Treasury Foreign Assets Control Regulations and the Cuban Assets Control Regulations
(Treasury Circular 655).
7
  SSA, POMS, RS 02650.040 A—Special Payment Procedures for Certain SSA-Restricted Countries
(July 8, 2011).
8
    Id. See Appendix C for an example of written assurance of free access from Armenia.
9
    Id. See Appendix D for restricted country conditions.
10
     SSA, OIO Mission Statement, August 27, 2010.
11
  SSA, OIG, Controls over Social Security Internet Benefit Applications (A-09-11-21165),
December 2011.
12
     See Appendix E for our scope and methodology.
Page 3 – The Commissioner

RESULTS OF REVIEW
Our review of iClaim applications from overseas locations from November 2009 to
November 2010 identified 96 applications filed from restricted countries, including
13 applications that resulted in payments to beneficiaries residing in restricted countries.
Of these 13 iClaim applications, OIO processed 12 while 1 was not properly referred to
OIO, which resulted in an unauthorized payment to the claimant. OIO subsequently
corrected this case and, in November 2011, SSA implemented an enhanced iClaim
application to capture foreign addresses. This enhanced application will assist OIO in
identifying iClaim applications from restricted countries. Additionally, we found SSA
lacked sufficient controls over monitoring suspended payments to beneficiaries
classified as residing in foreign countries. We identified 230 beneficiaries in suspense
for residing in restricted countries when they appeared to be residing in non-restricted
countries at the time of our review. As a result, SSA may have inappropriately held
some payments to these beneficiaries. SSA is taking actions to resolve the issues we
identified in our review.

FOREIGN iCLAIM APPLICATIONS

Using the Internet Protocol (IP) addresses on incoming iClaim transactions, 13 we found
SSA processed approximately 63,000 iClaim transactions 14 from locations outside of
the United States and its territories from November 2009 to November 2010. 15 Of these
63,000 iClaim transactions, we determined 500 related to 96 individuals who were filing
from a restricted country. Our review of these 96 iClaim applications revealed
13 individuals residing in 3 restricted countries were in current payment status. OIO
was aware of 12 of the 13 individuals (see Table 1).




13
  The IP address is a unique number assigned to every device connected to the Internet. Numbers are
usually assigned to Internet service providers within region-based blocks and can be used to identify the
general location of the computer connected to the Internet.
14
  Since one iClaim application may relate to multiple transactions, the number of iClaim applications was
smaller than the number of transactions.
15
  U.S. territories include Puerto Rico, American Samoa, Guam, and the U.S. Virgin Islands. See
Appendix F for a pie chart showing iClaim transactions from outside the United States. We cannot
account for IP addresses processed through third-party servers (for example, university servers).
Page 4 – The Commissioner
                  Table 1: Individuals Filing from Restricted Countries
                                                                     Number of Applicants
                                        Number of Applicants          Living in Restricted
            Restricted Country          Filing from Restricted         Countries and in
                                               Countries               Current Payment
                                                                             Status
         Azerbaijan                                1                            0
         Belarus                                   1                            0
         Cambodia                                  21                           5
         Georgia                                   1                            0
         Kazakhstan                                4                            1
         Moldova                                   1                            0
         Ukraine                                   29                           0
         Vietnam                                   38                           7
         Total                                     96                          13
        Note: Of the remaining 83 applicants, SSA records indicated 1 resided in a restricted country,
        but payments were in suspense status. The other 82 applicants filed from SSA-restricted
        countries but resided in non-restricted countries.

We found that an SSA field office failed to refer one of the iClaim applications to OIO.
The claim contained a domestic mailing and residence address, but the claim’s remarks
section indicated the claimant was living in Vietnam, a restricted country. As a result of
this oversight, SSA made an unauthorized payment to the claimant. We followed up
with OIO, and it contacted the beneficiary via the Foreign Service Post (FSP) in Manila,
Philippines, and obtained current address information. Consequently, OIP approved the
payment, and SSA modified the address on the Master Beneficiary Record (MBR) to
reflect the residence address in Vietnam. 16

Since we initiated our review, SSA has implemented a process that appears to be
collecting sufficient information to identify iClaim applications originating overseas,
including restricted countries. Effective November 2011, SSA added foreign address
fields to its iClaim application allowing people who reside outside the United States to
file an online application. SSA now automatically routes all iClaims from a foreign
country, except Canada, to OIO. SSA will route Canadian claims to servicing field
offices in the United States. We believe the inclusion of foreign mailing and residence
addresses will enhance the iClaims process and help SSA properly identify and process
iClaim cases from foreign locations, including restricted countries.




16
 The MBR consists of information related to a beneficiary’s entitlement to Title II benefits. SSA, POMS,
SM 00510.002—Master Beneficiary Record (MBR) Data (October 3, 2005).
Page 5 – The Commissioner
PAYMENTS HELD IN SUSPENSE

In addition to looking at foreign iClaim applications from restricted countries, we
reviewed SSA’s overall monitoring of payments to beneficiaries in restricted countries
and identified several areas where SSA could improve controls.

FORBES

We found SSA held 181 Title II beneficiaries’ payments in suspense because SSA
records indicated they lived in restricted countries, while our analysis indicated the
beneficiaries were not residing in restricted countries at the time of our review. SSA
produces a monthly FORBES, which is a list of each foreign country where the
beneficiaries reside. FORBES provides a breakdown of how many beneficiaries receive
their payments by paper check, direct deposit, or the Army Post Office/Fleet Post Office
facility and the amount SSA pays them each month. It also provides the counts for
beneficiaries in current pay status and those in suspense. OIO managers informed us
that they use the FORBES to monitor the status of payments to foreign beneficiaries.

Our examination of SSA’s June 2011 FORBES disclosed that 92 individuals were in
current pay status and residing in restricted countries. 17 We also found 383 Title II
beneficiary payments suspended for residing in a restricted country. SSA coded all
383 records with an “SL” on the MBR. 18 While 202 of these suspended cases related to
restricted countries, 19 we found 181 (47 percent) of the 383 Title II beneficiaries were in
countries or territories that were not currently either Treasury- or SSA-restricted
(see Table 2).




17
  See Appendix G for a list of beneficiaries in current and suspended pay while residing in restricted
countries. The FORBES list also contained 170 beneficiaries in current pay under the category “Invalid
Geographic Code.” It was unclear if any of these beneficiaries are in a restricted country. In discussions
with Agency officials, we learned that actions are being taken to identify where the beneficiaries reside.
18
  The Ledger Account File (LAF) code SL on the MBR indicates payments are in suspense for being in a
restricted country. SSA, POMS, HI 01005.806—LAF (Ledger Account File) Codes (March 15, 1999).
19
     See Appendix G.
Page 6 – The Commissioner
                        Table 2: Title II Payments Held in Suspense
                            for Beneficiaries in Non-Restricted
                                 Countries and Territories
                       Countries/Territories         Number of Beneficiaries
                    Albania                                       41
                    Armenia                                       5
                    Australia                                     1
                    Bulgaria                                      1
                    China                                         23
                    Czech Republic                                1
                    Estonia                                       3
                    Germany                                       13
                    Hong Kong                                     8
                    Hungary                                       1
                    Latvia                                        2
                    Lithuania                                     4
                    Macao                                         3
                    Palau                                         2
                    Philippines                                   1
                    Russia                                        70
                    Taiwan                                        1
                    Thailand                                      1
                    Total                                        181

Further analysis disclosed that 164 (91 percent) of the 181 Title II beneficiaries
remained in suspense for being in a restricted country even though the Treasury or SSA
had removed these countries from its restricted country list between 14 and 48 years
earlier (see Table 3). According to SSA staff, the remaining 17 suspended Title II
beneficiaries resided in countries or territories that were never on Treasury’s or SSA’s
restricted country list. 20




20
  These countries or territories were Australia, Hong Kong, Macao, Palau, Philippines, Taiwan, and
Thailand.
Page 7 – The Commissioner
              Table 3: Countries Removed from Restricted Country Lists1
                                    Date            Number of Years Held            Number of
       Foreign Country
                                  Removed          in Suspense as of 2011          Beneficiaries
      Albania                        1995                   16 years                     41
      Armenia                        1997                   14 years                      5
      Bulgaria                       1963                   48 years                      1
      China                          1979                   32 years                     23
      Czechoslovakia2                1968                   43 years                      1
      Estonia                        1993                   18 years                      3
      East Germany3                  1990                   21 years                     13
      Hungary                        1968                   43 years                      1
      Latvia                         1992                   19 years                      2
      Lithuania                      1992                   19 years                      4
      Russia                         1996                   15 years                     70
      Total                                                                             164
     Note 1: All of the countries were on the Treasury’s restricted country list at one point. In addition,
     some of these countries were placed on SSA’s restricted country list for a time after being removed
     from the Treasury list.
     Note 2: In 1993, Czechoslovakia became two separate countries: the Czech Republic and
     Slovakia.
     Note 3: East and West Germany became one country, Germany, in 1990.
     Source: OIP.

OIP staff explained that it was likely that SSA suspended payments to the
181 beneficiaries years ago when they were residing in Treasury restricted countries.
According to OIP, it might have occurred when the beneficiaries filed their claims or
after they became entitled to SSA benefits. For example, at the time a claim was filed,
a beneficiary may have provided a residence address in a restricted country or reported
a change of address from the U.S. to a restricted country. Beneficiaries are required to
report a change of address. OIP indicated that SSA did not continue contacting
beneficiaries who remained in LAF code SL in these former restricted countries.
However, if beneficiaries reported a change of address to a non-restricted country, they
should have been re-contacted by SSA.

OIP believed that when Treasury removed the restrictions, SSA followed procedures21
and identified all potentially eligible persons in that country, making attempts to contact
them by letter, through U.S. Embassy personnel or local media. 22 However, OIP
indicated that if a beneficiary did not contact SSA, the benefits would have remained
suspended to prevent SSA from inadvertently releasing payments without proper

21
  For example, see SSA, POMS, RS 02650.142—Resumption of Payments to Beneficiaries in Armenia
(April 3, 1997).
22
  OIP noted that when the countries were removed from Treasury’s restricted list (see Table 3 above),
SSA’s process for resuming payments to beneficiaries was primarily manual. Procedures called for
Agency staff to contact the beneficiaries, inform them that SSA could now make payments in those
countries, and ask them to notify the nearest U.S. FSP.
Page 8 – The Commissioner
documentation of eligibility (that is, current citizenship, current country of residence, and
determination on past-due and current benefits). Furthermore, OIP indicated that the
burden to show continued eligibility after suspension essentially falls on the beneficiary.

According to OIP, SSA does not have procedures in place to monitor beneficiaries
whose benefits remain in suspended pay status for being in a restricted country, even if
for extended periods. As a result, SSA may have underpaid a number of these
beneficiaries. Even if the beneficiary is deceased, relatives who are auxiliaries or
survivors may still be entitled to payments. 23 According to SSA policy, claims for
underpayments due deceased beneficiaries can be large since SSA has no restriction
on the accrual of benefits to U.S. citizens and nationals. 24

During our review, we learned that SSA took actions to resolve 1 of the 181 records we
identified. SSA issued a $3,366 underpayment to a retired 66-year-old man who
resided in China, a non-SSA-restricted country. OIP will need to work with the FSPs to
determine whether any of the remaining suspended beneficiaries are still alive and
review the cases identified in this report to help ensure a proper resolution. To prevent
future occurrences, OIP will also need to enhance procedures to timely resolve
suspended benefits related to countries no longer restricted by Treasury or SSA.

MBR Indicates Domestic Address in the United States

We found SSA held 49 Title II beneficiaries’ payments in suspense for living in a
restricted country, while the addresses on the MBR indicated the beneficiaries lived in
the United States. These individuals were not listed among the suspended
beneficiaries in foreign countries on FORBES. We noticed that some of the MBR
records included a special message that the beneficiary was either visiting or residing in
a restricted country. During our discussions with OIP management, we learned that
there could have been various underlying causes for these anomalies, depending on
the case. For example, staff may have used the wrong suspense code, staff may have




23
  In examining additional data, 171 of the 181 records, or approximately 94 percent, represented
beneficiaries age 90 or older. In our June 2011 audit, the Agency agreed with our recommendation to
implement controls to identify beneficiaries in suspense for 7 or more years, and ensure these
beneficiaries are terminated for presumption of death in a timely manner. See SSA, OIG, Aged
Beneficiaries Whose Benefits Have Been Suspended for Address or Whereabouts Unknown
(A-09-09-29117), June 2011.
24
  For example, see SSA, POMS, RS 02650.148—Claims for Underpayments Due Deceased
Beneficiaries in Armenia (April 3, 1997).
Page 9 – The Commissioner
failed to use the Left the U.S./Outside U.S. Screen, 25 or a systems limitation may have
existed. OIP indicated there were no controls in place to validate the restricted country
if Agency employees input LAF code SL into SSA’s computer system for a non-
restricted country. OIP staff also noted that the MBR lacked a field for the beneficiary’s
residence address. Unlike the Supplemental Security Record, which has separate
fields for the beneficiary’s mailing and residence addresses, the MBR only has a field
for the beneficiary’s mailing address. The lack of this field can complicate
determinations about a beneficiary’s residence.

OIO and OIP were unaware of these 49 cases because they show a U.S. address. 26 As
noted earlier, OIO and OIP did not have jurisdiction of U.S. cases, only foreign cases.
SSA will need to determine whether these beneficiaries are living in the United States or
a restricted country. To the extent any of these beneficiaries are living in restricted
countries, OIO will need to properly monitor and service these beneficiaries.

As we noted with the earlier cases, SSA will need to determine the whereabouts of
these suspended beneficiaries and whether the Agency underpaid any of the
beneficiaries or their auxiliaries and survivors. To date, SSA has taken actions to
correct 5 of the 49 records and has issued underpayments totaling $18,312. For
example, SSA issued an underpayment for $3,345 to a 69-year-old man who resided in
Washington State with his 4-year-old son, an auxiliary on his record. SSA had
underpaid both the father and son.

CONCLUSION AND RECOMMENDATIONS
SSA’s enhanced iClaim application that captures foreign addresses should assist OIO
in identifying iClaim applications from restricted countries. However, SSA will need to
improve its controls related to suspended payments for individuals residing in restricted
countries. SSA had already initiated actions to investigate suspended payments
identified during our review.

To improve oversight of beneficiaries residing in restricted countries, we recommend
SSA:

1. Enhance the existing process to timely identify and resolve suspended benefits
   related to countries no longer restricted by Treasury or SSA.

2. Determine what additional steps may be necessary to ensure that LAF code SL is
   only used for restricted countries.

25
  SSA field office staff use this screen to document the date a beneficiary left the United States, was
outside the United States, or returned to the United States. See SSA, POMS, RS 02610.024 A.4—Field
Office (FO)/Program Service Center (PSC) Actions upon Receipt of Proof of Presence in the U.S.
(October 31, 2011).
26
  We found that 13 (approximately 27 percent) of the 49 records represented beneficiaries age 90 or
older.
Page 10 – The Commissioner


3. Complete the review of the cases identified in this report for a proper disposition.

AGENCY COMMENTS
SSA agreed with our recommendations (see Appendix H). The Agency also provided
technical comments, which we incorporated, as appropriate.




                                          Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Department of the Treasury and Social Security Administration-
             Restricted Countries

APPENDIX C – Statement of Assurance of Free Access to Beneficiaries and Records

APPENDIX D – Beneficiary Restricted Country Conditions

APPENDIX E – Scope and Methodology

APPENDIX F – Internet Claim Transactions from Outside the United States

APPENDIX G – Payments to Beneficiaries in Restricted Countries

APPENDIX H – Agency Comments

APPENDIX I – OIG Contacts and Staff Acknowledgments
                                                Appendix A

Acronyms
DIB        Disability Insurance Benefits
FORBES     Report on Foreign Beneficiaries
FSP        Foreign Service Post
FY         Fiscal Year
ICLAIM     Internet Claim
IP         Internet Protocol
LAF        Ledger Account File
MBR        Master Beneficiary Record
OIG        Office of the Inspector General
OIO        Office of International Operations
OIP        Office of International Programs
POMS       Program Operations Manual System
RIB        Retirement Insurance Benefits
SSA        Social Security Administration
Treasury   Department of the Treasury
                                                                              Appendix B

Department of the Treasury and Social Security
Administration-Restricted Countries

Department of the Treasury-Restricted Countries 1

    Cuba
    North Korea

Social Security Administration-Restricted Countries 2

    Azerbaijan
    Belarus
    Cambodia
    Georgia
    Kazakhstan
    Kyrgyzstan
    Moldova
    Tajikistan
    Turkmenistan
    Ukraine
    Uzbekistan
    Vietnam




1
  SSA, POMS, RS 02650.001 C—Treasury Department Restrictions (November 26, 2002). This POMS
refers to the Treasury Foreign Assets Control Regulations and the Cuban Assets Control Regulations
(Treasury Circular 655).
2
  SSA, POMS, RS 02650.040 A—Special Payment Procedures for Certain SSA-Restricted Countries
(July 8, 2011).
                                   Appendix C

Statement of Assurance of Free Access to
Beneficiaries and Records
                                                                           Appendix D

Beneficiary Restricted Country Conditions
Each eligible beneficiary must agree to the following conditions to receive benefits while
in a Social Security Administration (SSA) restricted country.

•   He/she must appear personally at the Foreign Service Post (FSP) each month. At
    that time, proof of identity must be submitted. If the beneficiary’s benefits are paid
    by check, the check will be delivered at this time. The check will not be given to
    anyone acting on his/her behalf nor will it be mailed.

•   If the beneficiary does not appear in person, the check will be returned to the
    Treasury Department. If he/she is paid by direct deposit, the FSP will notify SSA
    promptly and SSA will stop his/her benefits. Payments will not be resumed until
    he/she visits the FSP and establishes his/her continuing eligibility for benefits.
    Payment will be made for past months if the beneficiary establishes eligibility for
    them.

•   He/she will not be paid through a representative payee. Benefits will be suspended
    if the beneficiary becomes unable to manage his/her own affairs.

•   The beneficiary must notify the FSP promptly of any change in his/her citizenship
    and any change of address.

•   The beneficiary’s family must notify the FSP if he/she becomes incapacitated or
    dies. 1




1
  SSA, POMS, RS 02650.040 B.2—Special Payment Procedures for Certain SSA-Restricted Countries
(July 8, 2011).
                                                                        Appendix E

Scope and Methodology
To accomplish our objective, we:

•   Reviewed pertinent sections of Federal laws, regulations, and the Social Security
    Administration’s (SSA) policies and procedures.

•   Reviewed prior Office of the Inspector General reports.

•   Obtained and verified Internet Protocol addresses on Internet Claim (iClaim)
    transactions originating in restricted countries and reviewed pertinent iClaim
    applications from November 2009 to November 2010.

•   Interviewed management and staff in the Offices of International Programs,
    International Operations (in Central Operations), and Electronic Services to obtain
    information about each component’s role related to processing and monitoring
    iClaim applications from and payments to restricted countries.

•   Analyzed and compiled data from the June 2011 Report on Foreign Beneficiaries
    (FORBES) to determine the number beneficiaries who had their payments
    suspended for being in restricted country and examined additional information
    reported for these beneficiaries.
We conducted the audit from June through November 2011 in Baltimore, Maryland, and
Chicago, Illinois. We relied on the representations of Agency personnel indicating the
FORBES data reported for the beneficiaries were complete and accurate. We
determined that the iClaim data used in the report is sufficiently reliable and believe that
the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives. The entities audited were the Deputy Commissioner for
Operations and the Associate Commissioner for International Programs. We conducted
our work in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.
                                                                                 Appendix F

Internet Claim Transactions from Outside the
United States
Using the Internet Protocol (IP) addresses on incoming Internet Claim (iClaim)
transactions, 1 we found the Social Security Administration processed approximately
63,000 iClaim transactions from locations outside of the United States and its territories,
from November 2009 to November 2010. We provide the location of these IP
addresses in Figure F-1.


                          Figure F-1: Country of Origin for iClaim
                             Transactions Using IP Addresses
                            (November 2009 to November 2010)

                                     Australia & New    Eastern Europe &
                                         Zealand         Former Soviet
                                           2%                Union           South America
                           Africa
                                                               2%                 5%
                            <1%
                                                                            Central America
                                                                             & Caribbean
Western                                                                           8%
Europe
 37%



                                                                                    Asia &
                                                                                  Middle East
                                                                                     17%




                              North America
                                  29%


                          Note: North America includes Canada and Mexico.




1
  The IP address is a unique number assigned to every device connected to the public internet. Numbers
are usually assigned to internet service providers within region-based blocks, which can be used to
identify the general location of the computer connected to the internet.
                                                                                   Appendix G

Payments to Beneficiaries in Restricted
Countries
             Table G-1: Department of the Treasury Restricted Countries1
                                           (As of June 2011)
                                                                           Beneficiaries Suspended
            Country                  Beneficiaries in Current Pay               for Being in a
                                                                             Restricted Country
 Cuba2                                              11                                   60
 North Korea                                        0                                    0
 Total                                              11                                   60
Notes: (1) SSA, POMS, RS 02650.001 C—Treasury Department Restrictions (November 26, 2002).
       (2) SSA has a specific license to send Social Security checks to beneficiaries living on the U.S.
           Naval Base, Guantanamo Bay, who are Cuban nationals, provided that the checks are sent
           through the U.S. postal facilities and are cashed on the base. SSA, POMS, RS 02650.005
           A.2.a.—Payment of Accrued Benefits and the Resumption of Benefits (August 10, 2004).
Source: Report on Foreign Beneficiaries (FORBES).

            Table G-2: Social Security Administration Restricted Countries
                                           (As of June 2011)
                                                                           Beneficiaries Suspended
            Country                  Beneficiaries in Current Pay               for Being in a
                                                                             Restricted Country
 Azerbaijan                                         0                                    0
 Belarus                                            0                                    10
 Cambodia                                           25                                   15
 Georgia                                            2                                    1
 Kazakhstan                                         1                                    1
 Kyrgyzstan                                         0                                    1
 Moldova                                            0                                    1
 Tajikistan                                         0                                    0
 Turkmenistan                                       2                                    0
 Ukraine                                            1                                    61
 Uzbekistan                                         0                                    0
 Vietnam                                            50                                   52
 Total                                              81                                  142
Note: SSA, POMS, RS 02650.040 A—Special Payment Procedures for Certain SSA-Restricted
Countries (July 8, 2011)
Source: FORBES.
                  Appendix H

Agency Comments
                                           SOCIAL SECURITY
MEMORANDUM


Date:      May 9, 2012                                                             Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Restricted Countries: Controls over Internet
           Claim Applications and Payments to Beneficiaries” (A-05-10-20180)—INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Amy Thompson at (410) 966-0569.

           Attachment




                                                          H-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“RESTRICTED COUNTRIES: CONTROLS OVER INTERNET CLAIM
APPLICATIONS AND PAYMENTS TO BENEFICIARIES” (A-05-10-20180)

Recommendation 1

Enhance the existing process to timely identify and resolve suspended benefits related to
countries no longer restricted by Treasury or SSA.

Response

We agree.

Recommendation 2

Determine what additional steps may be necessary to ensure that LAF code SL is only used for
restricted countries.

Response

We agree.

Recommendation 3

Complete the review of the cases identified in this report for a proper disposition.

Response

We agree.




                                                H-2
                                                                           Appendix I

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Walter Bayer, Director, Chicago Audit Division

   Deborah Kinsey, Audit Manager, Chicago Audit Office

Acknowledgments

In addition to those named above:

   Linda Smid, Auditor-in-Charge

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-05-10-20180.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
